         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       Improvements Needed in
       EPA’s Efforts to Replace Its
       Core Financial System
       Report No. 11-P-0019

       November 29, 2010
Report Contributors:                          Rudolph M. Brevard
                                              Charles M. Dade       

                                              Andrew Gibson        





Abbreviations

EPA          U.S. Environmental Protection Agency
FFMSR        Federal Financial Management Systems Requirements
FMLoB        Financial Management Line of Business
FSIO         Financial Systems Integration Office
IFMS         Integrated Financial Management System
IV&V         Independent Verification and Validation
JFMIP        Joint Financial Management Improvement Program
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
OMB          Office of Management and Budget
PAT          Product Acceptance Testing
PMA          President’s Management Agenda
SLCM         Systems Life Cycle Management
                                                                                                              11-P-0019
                                                                                                       November 29, 2010
                        U.S. Environmental Protection Agency
                        Office of Inspector General


                        At a Glance
                                                                                Catalyst for Improving the Environment

Why We Did This Review
                                   Improvements Needed in EPA’s Efforts to
We sought to evaluate whether      Replace Its Core Financial System
the Office of the Chief
Financial Officer (OCFO)
                                    What We Found
effectively managed the system
development project to replace
                                   OCFO’s management control processes do not ensure compliance with EPA’s
the U.S. Environmental
                                   Systems Lifecycle Management policies and procedures. Such compliance is
Protection Agency’s (EPA’s)
                                   necessary to provide reasonable assurance that efforts to replace the Agency’s core
core financial system, the
                                   financial system achieve the desired results. EPA’s system development policies and
Integrated Financial
                                   procedures identify specific activities and documents required during a system
Management System (IFMS).
                                   development project. However, OCFO’s internal control environment does not
We also sought to evaluate
                                   enforce these policies and procedures. OCFO proceeded with the design subphase of
whether the system
                                   the system project without obtaining executive management approval of the updated
development project is
                                   system requirements or developing and obtaining the required approval of test plans
achieving the desired results.
                                   to ensure the system will meet Agency needs. Furthermore, OCFO did not
                                   predetermine the acceptable product acceptance test script failure percentages to be
Background
                                   used as the basis for management’s go/no-go decision to proceed with using the
In 1989, EPA implemented           evaluated product. These conditions could result in a system that does not meet
IFMS as its core financial         management’s expectations and EPA’s needs, and/or does not comply with all
management and budget              applicable federal and EPA requirements.
execution system. In 2001,
EPA began the process to            What We Recommend
replace IFMS. EPA selected a
commercial-off-the-shelf core      We recommend that the Chief Financial Officer develop and implement formal
financial system certified by      procedures for future projects to ensure that the requirements document(s) and test
the General Services               plans are authorized by executive management prior to approving the system to move
Administration Financial           into the next phase of the lifecycle. We recommend that any subsequent changes to
Systems Integration Office.        the requirements document(s) and/or test plans be authorized by executive
                                   management prior to making changes to the design of the system.
For further information, contact
our Office of Congressional,
Public Affairs and Management
                                   We also recommend that the Chief Financial Officer develop and implement formal
at (202) 566-2391.                 procedures to ensure that the test plan associated with product acceptance testing, or
                                   any other test on which management relies, includes criteria that define what
To view the full report,           constitutes pass or failure to ensure that management has a basis for making go/no-go
click on the following link:       decisions.
www.epa.gov/oig/reports/2011/
20101129-11-P-0019.pdf
                                   The Agency agreed with the recommendations with agreed-upon corrective actions
                                   pending.
                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                              WASHINGTON, D.C. 20460


                                                                                 THE INSPECTOR GENERAL




                                        November 29, 2010

MEMORANDUM

SUBJECT:	              Improvements Needed in EPA’s Efforts to
                       Replace Its Core Financial System
                       Report No. 11-P-0019


FROM:                  Arthur A. Elkins, Jr.
                       Inspector General

TO:    	               Barbara Bennett
                       Chief Financial Officer


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report, calculated by multiplying the project’s staff days and expenses
by the applicable daily full cost billing rates in effect at the time, is $136,849.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Patricia H. Hill at
202-566-0894 or hill.patricia@epa.gov, or Rudolph M. Brevard at 202-566-0893 or
brevard.rudy@epa.gov.
Improvements Needed in EPA’s Efforts to                                                                                          11-P-0019
Replace Its Core Financial System




                                         Table of Contents 

Purpose .............................................................................................................................    1


Background .......................................................................................................................        1        


Scope and Methodology ..................................................................................................                  2        


Findings .............................................................................................................................    2


           Key Requirements Phase Documentation Not Authorized 

                Before Moving Into Design Subphase...........................................................                             2

           Product Acceptance Criteria Not Defined Before Testing .......................................                                 3


Recommendations............................................................................................................               4


Agency Comments and OIG Evaluation .........................................................................                             4         


Status of Recommendations and Potential Monetary Benefits....................................                                             5




Appendices 

     A Summary of Issues That May Have Contributed to Delays...............................                                              6         


     B Overview of EPA’s System Life Cycle Management Phases ............................                                                9         


     C Agency Response .................................................................................................                 10    


     D Distribution ............................................................................................................         13    

Purpose
            We sought to evaluate whether the Office of the Chief Financial Officer (OCFO)
            effectively managed the information technology project to replace the U.S.
            Environmental Protection Agency’s (EPA’s) core financial system, the Integrated
            Financial Management System (IFMS). We also sought to evaluate whether the
            system development project is achieving the desired results.

Background

            Based on requirements and demands placed on EPA by internal and external
            stakeholders, EPA decided to explore new core financial system options. The
            Financial Replacement Systems investment is OCFO’s ongoing modular approach
            to replacing its legacy financial systems, which include IFMS. EPA implemented
            IFMS in 1989 as its management and budget execution system.

            In February 2001, EPA hired a contractor to conduct an analysis of the Agency’s
            current financial systems and document the results in a strategic assessment. This
            assessment initiated the exploration for a new application. In January 2006, EPA
            issued a request for proposal to obtain bids for the project. EPA selected a
            commercial-off-the-shelf core financial system that is certified by the General
            Services Administration Financial Systems Integration Office (FSIO).

            EPA issued its Systems Life Cycle Management (SLCM) policy to promote
            effective and efficient processes for designing and operating information systems.
            Consistent with the policy, EPA’s SLCM procedure requires periodic,
            documented, management-level review of projects by the sponsoring office. The
            procedure requires program managers to oversee activities and establishes key
            opportunities to review development as the project progresses. These EPA policy
            documents define major decision points as “control gates.” The SLCM procedure
            requires the system manager to provide the required SLCM documentation to
            senior management for approval at each control gate. The procedure then requires
            senior management to make a go/no-go decision based on a review to ensure the
            required work products for each control gate are completed, approved, and
            verified. The policy and procedure also dictate that a system cannot move to the
            next phase without a go decision for the specific control gate.

            Many internal and external issues occurred during the lifecycle of this project,
            resulting in baseline changes and schedule delays. Appendix A highlights some of
            the issues that appear to have significantly altered the course of this project. The
            OCFO Office of Technology Solutions is managing the implementation of EPA’s
            SLCM processes for this project. See appendix B for specific details of EPA’s
            SLCM phases, subphases, and control gates.




11-P-0019                                                                                     1
Scope and Methodology
            We conducted this audit from January through September 2010, at EPA
            headquarters in Washington, DC. We conducted the audit in accordance with
            generally accepted government auditing standards. These standards require that
            we plan and perform the audit to obtain sufficient and appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit
            objectives. We believe the evidence obtained provides a reasonable basis for our
            findings and conclusions.

            We performed a limited review of the status of the SLCM processes the Agency
            had undergone up to this point to replace IFMS. According to the project
            manager, at the start of the audit, the Agency had just moved into the design
            subphase of the acquisition/development phase of the SLCM process. We
            considered relevant internal controls associated with the objectives of our review.
            We reviewed system lifecycle documentation and interviewed Agency personnel
            involved with the replacement system project. We did not look in detail at any
            specific subphase of the SLCM process, but rather evaluated the applicable
            documentation to assess compliance with EPA’s SLCM procedures. For example,
            we did not test the adequacy of system requirements but rather verified whether
            EPA defined and authorized them.

Findings
            OCFO’s management control processes do not ensure compliance with EPA’s
            SLCM policies and procedures necessary to provide reasonable assurance that
            efforts to replace the Agency’s core financial system achieve the desired results.
            OCFO proceeded with the design subphase without obtaining executive
            management’s approval of the revised requirements or developing and obtaining
            required approval of the associated test plans as required by EPA’s SLCM
            procedure. Furthermore, OCFO did not predetermine the acceptable product
            acceptance test (PAT) script failure percentages to be used as the basis of
            management’s go/no-go decision on the project. These conditions could result in a
            system that does not meet management’s expectations and EPA’s needs, and/or
            does not comply with all applicable federal and EPA requirements.

            Key Requirements Phase Documentation Not Authorized Before
            Moving Into Design Subphase

            In October 2008, the acting director for the Office of Enterprise Technology
            Innovations issued, and the deputy chief financial officer approved, a decision
            memorandum directing the project team to proceed to the design subphase prior to
            completing key activities in the requirements subphase. OCFO proceeded to the
            acquisition/development phase’s design subphase of implementation without
            solidifying requirements or developing and approving test plans. Without


11-P-0019                                                                                    2
            solidified requirements, it is difficult for OCFO to create test plans that ensure
            that the system meets the needs of the Agency.

            According to Agency policies and procedures, the requirements document(s) and
            test plans must be completed and approved by executive management prior to
            moving from the requirements subphase into subsequent phases of the system’s
            lifecycle. Also, any subsequent changes to either the requirements or test plans
            must be authorized by executive management prior to making changes to the
            design of the system. OCFO did not receive approval to make changes to its
            requirements from the Change Control Board until May 2010, over a year and a
            half after OCFO had moved into the design subphase.

            The system manager must ensure that specific, complete, measurable, and testable
            requirements and associated test plans are developed and approved by executive
            management prior to moving from the requirements subphase to subsequent
            phases. Additionally, the system manager must ensure that any changes to the
            requirements and/or test plans in subsequent phases are approved by executive
            management prior to making changes to the design. If specific, complete,
            measurable, and testable requirements and test plans are not developed, EPA
            cannot be sure that all requirements are met.

            Product Acceptance Criteria Not Defined Before Testing

            OCFO did not establish thresholds for PAT success or failure on which
            management would make a go/no-go decision prior to executing the test.
            According to the contract:

                   The awardee shall conduct a PAT using the configuration that
                   demonstrates the solution meets the requirements indicated as met
                   “out of the box” in the awardee’s response to the Requirements
                   Matrix. The awardee shall complete the PAT within the timeframe
                   and acceptance metrics proposed by the Awardee and accepted by
                   the Government.

            Without predefined test criteria, OCFO did not have objective measures to ensure
            that the intent of the PAT was met and the out-of-the-box system met the
            requirements as indicated by the contractor.

            Additionally, OCFO could not provide a test plan approved by senior
            management that defined and documented the test (purpose, requirements, test
            scripts, the criteria associated with the results to be applied for making the go/no-
            go decision, etc.). Such a test plan should have been developed and approved by
            executive management prior to the acquisition/development phase (the phase in
            which the PAT occurred). The lack of predefined test result thresholds for
            pass/failure on the PAT scripts could result in a product that requires significant
            customization to meet Agency requirements.

11-P-0019                                                                                        3
Recommendations
            We recommend that the Chief Financial Officer:

               1.	 Develop and implement formal procedures for future projects to ensure
                   that:

                   a.	 the requirements document(s) and test plans are authorized by
                       executive management (as a part of the definition phase’s
                       requirements subphase) prior to approving the system to move into the
                       next phase of the lifecycle, and
                   b.	 any subsequent changes to the requirements document(s) and/or test
                       plans are authorized by executive management prior to making
                       changes to the design of the system.

               2.	 Develop and implement formal procedures to ensure that the test plan
                   associated with PAT or any other test includes criteria that define what
                   constitutes pass or failure to ensure that management has a basis for
                   making go/no-go decisions.

Agency Comments and OIG Evaluation
            In its October 12, 2010, response to the draft audit report, OCFO agreed with our
            recommendations. OCFO is planning to take actions to improve its processes
            related to our findings and recommendations. OCFO indicated that it plans to
            develop a checklist to identify, track, and monitor the requirements approval
            process and provide training on the procedures for obtaining executive
            management’s approval for changes to requirements and test plans. OCFO also
            plans to develop processes, revise existing procedures, and provide training
            associated with go/no-go decisionmaking criteria and ensure that the criteria are
            defined and approved prior to the start of work. We consider all of the
            recommendations open with agreed-upon corrective actions pending. The
            Agency’s complete response is provided in appendix C.




11-P-0019                                                                                     4
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                        BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed-To
    No.      No.                          Subject                        Status1      Action Official           Date      Amount      Amount

     1        4     Develop and implement formal procedures for             O      Chief Financial Officer
                    future projects to ensure that:
                     a. the requirements document(s) and test plans
                        are authorized by executive management (as
                        a part of the definition phase’s requirements
                        subphase) prior to approving the system to
                        move into the next phase of the lifecycle, and
                     b. any subsequent changes to the requirements
                         document(s) and/or test plans are authorized
                         by executive management prior to making
                         changes to the design of the system.

     2        4     Develop and implement formal procedures to              O      Chief Financial Officer
                    ensure that the test plan associated with PAT or
                    any other test includes criteria that define what
                    constitutes pass or failure to ensure that
                    management has a basis for making go/no-go
                    decisions.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress

    11-P-0019                                                                                                                               5
                                                                                                            Appendix A

                     Summary of Issues That May Have 

                         Contributed to Delays 

A number of events occurred during the system development project that slowed the project’s
progress. Each is shown in the timeline below (figure A-1) and explained in the text that follows.

 Figure A-1: Financial Replacement System chronological project roadblocks


                           Agency Policies and Procedures Evolved

                                                 Project Management Turned Over


                                                              Financial Management

                                                                      Line of

                                                              Business Established



                                                                            Federal
                                                                           Financial
                                                                         Management
                                                                            System
                                                                         Requirements
                                                                           Changed

                                                                                     Bid Protest
                                                                                       Lodged

                                                                                                     System
                                                                                                  Development
                                                                                                 Model Changed
     2000



              2001



                         2002



                                  2003



                                          2004



                                                       2005



                                                                  2006



                                                                              2007



                                                                                          2008



                                                                                                     2009



                                                                                                                 2010


                                                  Calendar Year

 Source: OIG analysis.




Agency Policies and Procedures Evolved
Throughout the lifecycle of this project, EPA governed its systems development activities under
multiple, evolving systems lifecycle management procedures. When the project began in 2001,
EPA policy for SLCM was documented in the Information Resources Management Manual
Chapter 17, Systems Life Cycle Management, issued August 28, 1994. An Interim Agency
SLCM Procedure, which was approved on April 29, 2005, and the SLCM Procedure, which was
approved on June 28, 2007, superseded the Information Resources Management Manual.


 11-P-0019                                                                                                              6
Differences in these documents may have contributed to delays throughout the lifecycle of this
project. In the 2005 and 2007 SLCM procedures, the SLCM is broken into the following phases:

      Definition phase
      Development or acquisition phase (2005 procedure)
       Acquisition/development phase (2007 procedure)
      Implementation phase
      Operations and maintenance phase
      Termination phase

The 2007 SLCM procedure documents the same phases but broke down some of the phases into
subphases and established control gates to which the Agency must adhere. The subphases for the
definition phase are concept exploration, system planning, and requirements. The acquisition and
development subphases are acquisition, design, development, and test.

Project Management Turned Over
Since this project began, persons holding project management responsibility on the Financial
System Modernization Project have retired or left to pursue other opportunities. Loss of expertise
and knowledge over the lifetime of the project has presented challenges in maintaining artifacts
as well as understanding undocumented thought processes.

Financial Management Line of Business Established
A major hurdle that the Agency faced during the procurement was deciding which procurement
vehicle to use as well as ensuring that the process was competitive and complied with federal
procurement regulations and the federal government’s implementation of the Financial
Management Line of Business (FMLoB) initiative established by the Office of Management and
Budget (OMB).

In 2001, President Bush created the President’s Management Agenda (PMA) to address the need
for citizen-centered, results-oriented, and market-based federal government initiatives. The
success of the PMA depended on federal agencies working as a team across traditional
boundaries to better serve the American people by focusing on citizens rather than individual
agency needs. Pursuant to the PMA, OMB created the lines-of-business initiatives, which
address redundant information technology investments and business processes across the federal
government. The lines-of-business initiatives afforded agencies an unprecedented opportunity to
influence the direction of specific core business functions government-wide. The FMLoB was
created as part of these initiatives. FSIO, within the General Services Administration Office of
Technology Strategy, is the program manager for FMLoB.

In June 2005, EPA issued the initial acquisition strategy for the replacement system project,
stating that it planned to use a General Services Administration schedule to issue a blanket
purchase agreement for services needed for the replacement system project. In fall 2005, OMB
began to issue guidance directing agencies to use commercial vendors or the center of excellence


 11-P-0019                                                                                     7
vendors for implementation as well as hosting services In January 2006, EPA revised its
acquisition strategy to address OMB’s guidance.

Federal Financial Management System Requirements Changed
EPA’s original requirements were documented under the Joint Financial Management
Improvement Program (JFMIP) Federal Financial Management Systems Requirements
(FFMSR), in place in October 2005 when the original solicitation package was put together. The
JFMIP principals voted to modify the roles and responsibilities of the JFMIP and established
FSIO within the General Services Administration, which was formerly known as the JFMIP staff
office. FSIO issued new FFMSRs in 2006, which replaced the associated JFMIP FFMSRs. In
August 2009, OCFO underwent a process to recertify the requirements to ensure compliance
with the new FSIO FFMSRs, among other inputs.

Bid Protest Lodged
A bid protest over the contract award associated with this project also added to the delays. EPA
awarded the contract on February 12, 2007. One of the unsuccessful vendors filed a bid protest
on February 26, 2007. The U.S. Government Accountability Office sustained/approved the bid
protest on June 4, 2007. The award protest was resolved on April 10, 2008, and the first task
order was issued on May 6, 2008.

System Development Model Changed
The decision to begin the implementation with the Rapid Prototype Life Cycle system
development model in 2005 and then to change to the spiral model in 2008 may have contributed
to some of the Agency’s time lags and schedule delays.

In a rapid prototype development effort, an initial set of system requirements is translated into a
test environment, and end users provide feedback. The feedback may lead to changes in
configuration, business process reengineering, or other modifications. While every attempt will
be made to minimize customizations to the commercial software, some customizations may be
needed. The process of building, using, evaluating, and refining goes through several iterations
before the system is ready for deployment. As the project progresses, the rapid prototype model
may be tailored.

The Spiral Life Cycle Model encompasses the best features of both the Waterfall Life Cycle and
prototyping models, while simultaneously adding a new element: risk analysis. The model
divides the software engineering space into four quadrants: planning, risk analysis, engineering,
and customer evaluation.




 11-P-0019                                                                                        8
                                                                                     Appendix B

                       Overview of EPA’s 

             System Life Cycle Management Phases 

EPA’s system lifecycle consists of five phases. The objective of each phase is to ensure sound
project planning and management practices throughout the system lifecycle. Figure B-1 depicts
these phases and provides a context in relation to EPA’s enterprise architecture, capital planning
and investment control, and security processes. The diagram also identifies the principal
executive-level reviews (control gate reviews) that apply during the system lifecycle.

Figure B-1: EPA’s Lifecycle Management Framework




Source: EPA’s System Life Cycle Management (SLCM) Procedure (2121-P-01.0), June 28, 2007, p. 8.




 11-P-0019                                                                                        9
                                                                                 Appendix C

                             Agency Response
                               October 12, 2010 (date stamped)




MEMORANDUM

SUBJECT: 	    Response to the Office of the Inspector General Draft Audit Report,
              “Improvements Needed in EPA’s Efforts to Replace Its Core Financial System,”
              Project Number OMS-FY10-0006, dated September 9, 2010

FROM: 	       Barbara J. Bennett /s/
              Chief Financial Officer

TO: 	         Rudolph M. Brevard
              Director, Information Resources Management Assessments
              Office of Missions Systems
              Office of Inspector General

       Thank you for the opportunity to review and comment on the draft audit report entitled,
“Improvements Needed in EPA’s Efforts to Replace Its Core Financial System, Project Number
OMS-FY10-0006.” I would like to express my appreciation to you and your staff for working
collaboratively with OCFO to ensure the report’s factual accuracy and provide recommendations
to improve OCFO processes.

       The Office of Inspector General issued the following two recommendations. OCFO’s
responses follow each recommendation:

Report Recommendation 1:

   	 Develop and implement formal procedures for future projects to ensure that:
         o	 the requirements document(s) and test plans are authorized by executive
            management (as a part of the definition phase’s requirements subphase) prior
            to approving the system to move into the next phase of the lifecycle, and
         o	 any subsequent changes to the requirements document(s) and/or test plans are
            authorized by executive management prior to making changes to the design of
            the system.




11-P-0019                                                                                  10
OCFO Response:

        OCFO agrees that the management control processes could have been more structured as
the project progressed and has taken steps to formalize its current requirements and management
approval procedures. However, at no time did OCFO’s management approval process
compromise the development of system requirements and test plans to provide reasonable
assurance that EPA will achieve its desired results.

        The draft report accurately described that revisions/changes made in the System
Lifecycle Management (SLCM) document and the related control gate impacted how OCFO
progressed in developing its new core financial system. OCFO used its program management
support contractor to review the changes that occurred from the initial SLCM document in place
at the beginning of the contract to its current version. The contractor identified the specific
actions OCFO had taken that were different than the required actions in the initial SLCM. The
contractor further prepared a justification for an approval waiver, if warranted. Based on an
Independent Verification and Validation (IV&V) conducted by the Office of Environmental
Information (OEI), a waiver was deemed unnecessary because OCFO’s actions and approach did
not materially compromise or change the eventual decision. The program management report for
OCFO and the IV&V report from OEI are available for review.

        The draft report portrayed the OCFO system requirements approval process less
favorably. OCFO took great strides to ensure that requirements were complete, measureable,
and testable. OCFO documented and tracked requirements in a matrix that was reviewed and
approved by senior management at key points. The draft report accurately identified OCFO’s
progress in reviewing and revising its requirements as the project progressed. For example,
OCFO worked with EPA’s program and regional office subject matter experts to identify and
confirm that approximately 1,400 requirements satisfied EPA, Financial Management Line of
Business (FMLoB), and Financial Systems Integration Office (FSIO) requirements. This
baseline set of requirements was an attachment to the formal OCFO acquisition in the Request
for Proposal. Due to subsequent changes to FSIO requirements and new Momentum
capabilities, OCFO continued its review and approval of system requirements. Rather than
submitting a revised list of all the requirements for management’s approval, EPA separated the
requirements into two categories: (1) no additional changes and/or approvals needed, and (2)
changes that required management approval through the OCFO Change Control Board.
Although the draft report states that OCFO proceeded with the design subphase without
obtaining executive management approval, OCFO based the design phase on requirements that
did not require additional management approvals.

        To improve the requirements approval process and procedures for current and future
OCFO projects, OCFO is developing a checklist to identify, track, and monitor those actions that
require executive management approval. The OCFO project manager will see that the checklist
is regularly utilized and maintained. OCFO will train its control account managers and other
subject matter experts working on the project on the procedures for obtaining executive
management approval over changes to requirements and test plans.




11-P-0019                                                                                    11
       Report Recommendation 2:

   	 Develop and implement formal procedures to ensure that the test plan associated with
      PAT or any other test includes criteria that define what constitutes pass or failure to
      ensure that management has a basis for making go/no-go decisions.

OCFO Response:

        OCFO agrees that it should have followed a more formal process in identifying and
documenting its PAT plan and the associated criteria for formulating a “go/no go” decision on
the project. However, at no time did the PAT “go/no-go” criteria: (1) incorrectly influence
management’s decision to accept or not accept the Momentum product, (2) result in a system that
could not meet management’s expectations and EPA’s needs, and (3) result in the selection of a
product that does not comply with applicable federal and EPA requirements.

        OCFO worked with EPA’s program and regional office subject matter experts to test and
verify whether the Momentum product could meet EPA’s critical requirements. The Momentum
product was a commercial-off-the-shelf product that is in place in other government agencies.
Accordingly, OCFO was fully aware that the Momentum product was an established suite and
relied on the success/failure criteria established by EPA’s subject matter experts during their
assessment of performance against test scripts during the PAT testing. The Momentum
contractor developed the test scripts with input from the EPA experts. In some cases, the test
script failed due to a missing step and not because the Momentum software could not meet the
EPA requirement. Accordingly, EPA allowed some test scripts to be revised and retested. The
EPA control account manager made the decision to develop the “go/no-go” decision criteria
based on input from the EPA subject matter experts. OCFO documented the PAT results and
made a presentation to the Administrative System Architecture Steering Committee (ASA SC)
that serves as the Agency-level governance body for the project. Based on the information
provided, the ASA SC made the recommendation to the Deputy CFO, as the project sponsor, to
accept the Momentum product and move forward with the project.

        To improve its process for defining “go/no-go” decision making criteria, OCFO will
develop processes and revise existing procedures to apply more rigorous use of test script results
in driving “go/no-go” decisions on current and future projects. We have done this with FSMP
and will use the criteria in obtaining executive management go/no-go decisions. The OCFO
project manager will see that decision making criteria are developed based on test script pass/fail
metrics and approved prior to the start of the work. OCFO will train its control account
managers and other subject matter experts working on the project on the appropriate evaluation
of projects based on test script pass/fail measures. At present, EPA has applied the OIG
recommendation and established success/failure metrics and acceptance criteria for the upcoming
User Acceptance Testing phase of the Core Financial System implementation.




11-P-0019                                                                                       12
                                                                                  Appendix D

                                     Distribution
Office of the Administrator
Chief Financial Officer
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Financial Management, Office of the Chief Financial Officer
Audit Followup Coordinator, Office of the Chief Financial Officer




11-P-0019                                                                                 13
